No.

In The Supreme Court of the United States
TIMOTHY K. MOORE, in his official capacity as Speaker of the North Carolina House
of Representatives; PHILIP E. BERGER, in his official capacity as President Pro
Tempore of the North Carolina Senate; BOBBY HEATH; MAXINE WHITLEY;
and ALAN SWAIN,
v.

Applicants,

DAMON CIRCOSTA, in his official capacity as Chair of the North Carolina State Board
of Elections; STELLA ANDERSON, in her official capacity as a member of the North
Carolina State Board of Elections; JEFFERSON CARMON III, in his official capacity as
a member of the North Carolina State Board of Elections; and KAREN BRINSON
BELL, in her official capacity as the Executive Director of the North Carolina State
Board of Elections,
Respondents,
&
NORTH CAROLINA ALLIANCE FOR RETIRED AMERICANS; BARKER FOWLER; BECKY
JOHNSON; JADE JUREK; ROSALYN KOCIEMBA; TOM KOCIEMBA; SANDRA MALONE; and
CAREN RABINOWITZ,
Intervenor-Respondents.
CERTIFICATE OF SERVICE

I, David H. Thompson, hereby certify that I am a member of the Supreme Court
Bar, and that I have this 22nd day of October 2020, caused a copy of the Emergency
Application for Injunction Pending Appeal to be served via electronic mail, and via
overnight mail to anyone who does not consent to service via electronic mail, to:
Joshua H. Stein
Attorney General
jstein@ncdoj.gov
Alexander McC. Peters
apeters@ncdoj.gov
Ryan Y. Park
rpark@ncdoj.gov
Sarah G. Boyce
sboyce@ncdoj.gov
North Carolina Department of Justice
Post Office Box 629
Raleigh, North Carolina 27602
Counsel for Respondents
Bobby R. Burchfield
bburchfield@kslaw.com
Matthew M. Leland
mleland@kslaw.com
KING & SPALDING LLP
1700 Pennsylvania Avenue, N.W.
Suite 200
Washington, D.C. 20006
R. Scott Tobin, N.C. Bar No. 34317
stobin@taylorenglish.com
TAYLOR ENGLISH DUMA LLP
4208 Six Forks Road, Suite 1000
Raleigh, North Carolina 27609
Counsel for Wise Plaintiffs-Appellants

Marc E. Elias
MElias@perkinscoie.com
Uzoma N. Nkwonta
UNkwonta@perkinscoie.com
Lalitha D. Madduri
LMadduri@perkinscoie.com
John M. Geise
JGeise@perkinscoie.com
Jyoti Jasransaria
JJasrasaria@perkinscoie.com
Ariel Glickman
AGlickman@perkinscoie.com
Perkins Coie LLP
700 13th St. N.W., Suite 800
Washington, D.C. 20005-3960
Molly Mitchell
MMitchell@perkinscoie.com
Perkins Coie LLP
1111 W. Jefferson St., Suite 500
Boise, ID 83702
Burton Craige
BCraige@pathlaw.com
Narenda K. Ghosh
NGhosh@pathlaw.com
Paul E. Smith
PSmith@pathlaw.com
Patterson Harkavy LLP
100 Europa Drive, Suite 420
Chapel Hill, NC 27517
Counsel for Intervenor-Respondents

____________________________
David H. Thompson

